                          2
 OFFICE OF THE INSPECTOR GENERAL




             SEMIANNUAL
                          0
                          REPORT




                          0
OCTOBER 1, 1999 ~ MARCH 31, 2000




                          0
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA) Board
of Directors and Congress on the
overall efficiency, effectiveness, and
economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.


The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations; and
(3) inefficiencies in TVA programs and
operations.


If you want to report any matter
involving TVA programs, operations, or
employees, you should call the OIG
Hotline or write the Inspector General's
office.




               TVA
               TVA
                                            Call toll free:
               INSPECTOR
                                            1-800-323-3835
               GENERAL                      423-632-3550 (Knoxville)


                           n e
                      t li                  Tennessee Valley Authority
                                            400 West Summit Hill Drive ET 4C


                  H o                       Knoxville, Tennessee 37902-1401
Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




George T. Prosser
Inspector General



April 28, 2000




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

This semiannual report describes the accomplishments of our office for the six-month period ending
March 31, 2000.

During this reporting period, I was returned by the TVA Board of Directors to my duties as the Inspector
General. I look forward to continuing my tenure as Inspector General and working with the TVA Board of
Directors to help TVA move into the 21st century. The OIG’s vision is to be a “catalyst for excellence,” and I
intend to renew our efforts to focus the office on achieving this vision.

During this reporting period, OIG audits, investigations, and special projects continued to identify opportu-
nities for TVA to save or recover money or to make process improvements, and TVA continued to respond
favorably to OIG recommendations. I am proud to be associated with so many qualified and dedicated
employees.

Sincerely,



George T. Prosser




                                                            S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
                                                                                                         C O N T E N T S                        ■




1    Executive Summary                                   10 Audits
                                                                                                                              OFFICE OF THE
                                                                                                                              INSPECTOR
2    TVA Profile                                         14 Investigations                                                    GENERAL

                                                                                                                              SEMIANNUAL
3    Office of the Inspector General                     19 Special Projects                                                  REPORT

                                                                                                                              OCTOBER 1, 1999
5    Special Features                                    21 Legislation and Regulations
                                                                                                                              THROUGH
                                                                                                                              MARCH 31, 2000




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending March 31, 2000
    2. OIG's Report on Management Decisions for the Six-Month Period Ending March 31, 2000
    3. Investigative Referrals and Prosecutive Results
    4. Audit Reports With Corrective Actions Pending
    5. OIG Reporting Requirements




                                                                       S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
■    E X E C U T I V E            S U M M A R Y




                      We continued our efforts to support TVA        (7) aspects of TVA’s safety program for
                      by providing quality audits, investigations,   hazardous materials. Representative
                      and special projects. During this              special projects include: (1) a review of
This report           reporting period, our reviews identified       TVA’s compliance strategy for Phase II
summarizes the        over $11 million in recoveries, potential      emissions reductions, (2) a review of
                      savings, questioned costs, or funds            contractor’s proposed fee for medical
activities and
                      which could be put to better use.              benefits administrative services, and
accomplishments       Management took numerous actions in            (3) participation in a review of the supply
of TVA's OIG          response to our recommendations.               chain business processes.

during the six-       We completed 45 audits and 12 special          We closed 111 investigations which led

month period          project reviews. We identified over            to over $4.7 million in savings and
                      $950,000 in questioned costs and more          recoveries, administrative or disciplinary
ending
                      than $5.6 million in funds that could be       action taken against 13 individuals, and
March 31, 2000.       used more effectively. Representative          other corrective action in 5 cases.
                      audits included the following areas:           Matters we investigated included an
                      (1) preaward and postaward contract            attempted bombing, workers’ compen-
                      audits, (2) TVA performance measures           sation fraud, environmental crimes,
                      under the Government Performance and           contractors’ fraudulent claims for
                      Results Acts, (3) TVA’s year 2000              temporary living expenses, health care
                      readiness, (4) TVA credit card programs,       overpayments, and employee conduct
                      (5) effectiveness of TVA’s environmental       issues. Our investigations led to six
                      audit program, (6) combustion turbine          subjects being indicted and nine
                      incremental cost calculations, and             convicted.




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                   T V A            P R O F I L E                   ■




                              Bowling Green
                                             •

                                                                              •
                                                                           Bristol


                                    •                          Knoxville
                                                                                     29 hydroelectric dams, and a pumped
                                 Nashville
                                                               •
              Jackson
                •
                                                                                     storage plant. These plants provide over
  Memphis
 •                                               Chattanooga
                                                 •
                          •
                        Muscle
                                   Huntsville
                                        •                                            28,000 megawatts of net dependable
                        Shoals

            Columbus
                    •                                                                generating capacity. TVA’s electric power
                                                                                     business is entirely self-funding.

                                                                                                                                                  TVA's 13,253
                                                                                     TVA’s major functions include (1) multiple
                                                                                     purpose management of the Tennessee                          employees serve
TVA is a federal corporation, the nation’s
                                                                                     River system; (2) generation, sale, and                      an 80,000-square-
largest electric power producer, a
                                                                                     transmission of electricity to wholesale
regional economic development agency,                                                                                                             mile region
                                                                                     and large industrial customers; (3) invest-
and a national center for environmental
                                                                                     ment in economic development activities                      spanning seven
research. TVA’s statutory responsibilities
                                                                                     that generate a higher standard of living
include management of the nation’s fifth                                                                                                          states.
                                                                                     for citizens of the Tennessee Valley;
largest river system.
                                                                                     (4) stewardship of TVA assets and
                                                                                     provision of recreation opportunities on
TVA’s mission, as stated in its Annual
                                                                                     federal lands entrusted to TVA; and
Performance Plan, is “to develop and
                                                                                     (5) research and technology development
operate the Tennessee River system to
                                                                                     that addresses environmental problems
minimize flood damage and improve
                                                                                     related to TVA’s statutory responsibilities
navigation, and to provide energy and
                                                                                     for river and land management and power
related products and services safely,
                                                                                     generation.
reliably, and at the lowest feasible cost to
residents and businesses in the multi-
                                                                                     TVA is governed by a three-member
state Tennessee Valley Region.”
                                                                                     Board of Directors appointed by the
                                                                                     President and confirmed by the Senate.
TVA’s programs fall into two separate but
                                                                                     Craven Crowell is the Chairman, and Skila
interrelated activities—the power
                                                                                     Harris and Glenn L. McCullough, Jr., are
program and the resource management
                                                                                     Directors.
programs. TVA’s power system consists
of 11 coal-fired plants, 3 nuclear plants,




                                                                                           S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000     2
■   O F F I C E      O F      T H E       I N S P E C T O R       G E N E R A L




                     Organization                                 Office Authority
                     The OIG consists of two major opera-         The TVA Board of Directors administra-
                     tional units—Audit and Investigative.        tively established the OIG during
                                                                  October 1985. When the Inspector
                     The OIG’s Audit Operations unit consists     General Act Amendments of 1988 were
                     of three departments. One is devoted to      enacted, TVA's OIG became one of the
                     contract-related audits, both preaward       statutory offices whose Inspector
                     and postaward reviews; the two other         General is appointed by the agency head.
                     departments focus, respectively, on          TVA's Inspector General is independent
                     (1) performance and special projects and     and subject only to the general supervi-
                     (2) financial and ADP-related issues.        sion of the Board of Directors.

                     The OIG’s Investigative Operations unit
                     consists of two investigative depart-
                     ments—Financial Investigations and
                     Internal Investigations. Both depart-
                     ments work a variety of cases, including
                     employee integrity and environmental
                     issues. Financial Investigations focuses
                     on contract and workers’ compensation
                     cases, while Internal Investigations
                     focuses on employee conduct issues
                     and benefits and entitlement programs.
                     In addition, an Investigative Services and
                     Hotline group reports to the Assistant
                     Inspector General for Investigations.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                O F F I C E     O F    T H E     I N S P E C T O R         G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA head-                  The OIG's fiscal year 2000 budget was
quarters in Knoxville, Tennessee. The                   about $7.2 million, with a budgeted
OIG also has an investigative satellite                 headcount of 82 employees.
office in Chattanooga, Tennessee.



                           OFFICE OF THE INSPECTOR GENERAL
                                       03/31/00



                                          INSPECTOR GENERAL
                                                   ■
                                            George T. Prosser


                                                                                      Manager
       Legal Counsel                                                              (Human Resources)

             ■                                                                               ■
       Richard P. Levi                                                                 Kay T. Myers




                      Assistant                                            Assistant
                  Inspector General                                   Inspector General
                       (Audits)                                         (Investigations)
                          ■                                                    ■
                     Ben R. Wagner                                     G. Donald Hickman


                     ■ Contract                                           ■ Financial
                       Audits                                               Investigations
                       Paul E. Ivie                                         James M. Reed
                       Manager                                              Manager
                     ■ Financial and                                      ■ Internal
                       ADP Audits                                           Investigations
                       Deborah Meyers Thornton                              Ron W. Taylor
                       Manager                                              Manager
                     ■ Operational
                       Audits
                       and Special
                       Projects
                       Lewis M. Ogles
                       Manager




                                                                S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   4
■   S P E C I A L          F E A T U R E S




                     Joint Projects Produce                         positions in TVA’s Tool Management
                     Results                                        Program as well as the brother of one of
                                                                    the individuals pled guilty in federal court
                     During this reporting period, we con-          to conspiring to steal TVA industrial
                     ducted numerous joint projects which led       power and pneumatic tools valued at
                     to significant results. Our joint efforts      over $737,000.
                     included pairing auditors and investiga-
                     tors and working with other organiza-          During November 1999, one of the
                     tions. Some of our joint projects are          former managers and his brother were
                     described more fully below.                    sentenced to 18 months in federal
                                                                    prison, and both were ordered to pay
                     ATTEMPTED BOMBING OF TVA                       restitution of $100,000 to TVA.
                     SUBSTATION—INDICTMENT

                     On or about October 27, 1993, an               During March 2000, the remaining
                     explosive device, consisting of dyno-          individual, who cooperated with our
                     unigel and a homemade timer, was found         investigation, was sentenced to
                     affixed to a breaker at a TVA substation in    12 months’ incarceration in federal
                     Erin, Tennessee. Although the device           prison. In addition, he was ordered to
                     malfunctioned and failed to detonate, had      make restitution to TVA of $75,000.
                     it exploded, it would have resulted in a
                                                                    PRODUCT SUBSTITUTION—
                     significant regional electric power outage,
                                                                    GUILTY PLEAS/SENTENCING
                     equipment destruction, and environmen-
                                                                    During an earlier reporting period, our
                     tal damage.
                                                                    audit and investigative efforts revealed
                     After an extensive joint OIG and TVA           that a Tennessee coal corporation
                     Police investigation, a Clarksville, Tennes-   fraudulently supplied TVA a blend of coal
                     see, man was indicted in federal court on      and petroleum coke (petcoke), which was
                     four charges of destruction of govern-         prohibited by contract. (Petcoke is similar
                     ment property by means of an explosive         in appearance to coal but contains a
                     device.                                        higher sulfur content, among other
                                                                    differences.)
                     TOOL THEFT CONSPIRACY—
                     SENTENCING                                     During this reporting period, the corpora-
                     During a previous reporting period, as a       tion pled guilty to one count of mail fraud
                     result of a joint investigation/audit, two     and one count of major fraud against the
                     individuals formerly assigned to key           United States. Additionally, the
                                                                    corporation’s owner pled guilty to theft.


5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                       S P E C I A L       F E A T U R E S




The corporation and its president are       The Consent Agreement and Consent
awaiting sentencing; however, under a       Order (CACO) required the company to
plea agreement, the corporation agreed      pay a civil penalty of $2,750,000 to the
to pay TVA $40,000 in restitution—the       United States Treasury.
estimated amount of its profit from using
petcoke in TVA’s coal shipments.            Federal and state regulations required the
                                            company to measure the composition
ENVIRONMENTAL CRIMES JOINT                  and monitor the hourly flow rate of
TASK FORCE (ECJTF)
                                            hazardous waste delivered to seven
During this reporting period, we con-       boilers which burn a combination of
tinued our participation in ECJTF, which    hazardous waste and coal to generate
is comprised of members from numerous       energy. This requirement is designed to
state and federal agencies, including the   ensure the company does not burn
Federal Bureau of Investigation, Environ-   hazardous waste in excess of specified
mental Protection Agency (EPA), De-         maximum quantities set for each boiler.
partment of Justice (DOJ), and TVA’s        (Although the company is allowed to
OIG.                                        burn hazardous waste generated during
                                            its production process, the amount
ECJTF focuses enhanced law enforce-         which can be burned is limited and must
ment resources against individuals and      be closely monitored.)
companies involved in environmental
crimes and prosecutes those individuals     The Administrative Complaint, which
and companies by applying the most          accompanied the CACO, alleged the
effective federal and state criminal and    company failed to accurately monitor the
civil statutes. Highlights of the task      amount of hazardous waste burned in
force’s work during this reporting period   seven boilers from December 1995
include the following.                      through August 1996. Further, the
                                            company failed to notify the Tennessee
$2,750,000 Recovery
                                            Department of Environment and Conser-
In part because of an ECJTF criminal        vation of the noncompliance until
investigation, a Fortune 500 chemical       December 1996. A major penalty was
company located in Tennessee settled an     pursued because of the extended period
administrative enforcement action for       of noncompliance and the company’s
alleged violations of the Resource          five-month delay in notification.
Conservation and Recovery Act (RCRA).




                                                  S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   6
S P E C I A L   F E A T U R E S




                         Other provisions in the agreement              Littering a Tennessee Waterway
                         included that EPA acknowledged the             A father and son allegedly stockpiled
                         company satisfactorily demonstrated the        used tires and other refuse on their
                         alleged violations were remedied, the          property, which is adjacent to a tributary
                         company did not admit liability in connec-     of Cherokee Lake. It was reported that
                         tion with the allegations, and the com-        following heavy rain, numerous tires
                         pany was not released of criminal liability.   washed into the lake bed.

                         Criminal Misuse of Pesticide
                                                                        The son pled guilty to criminal littering in
                         The Tennessee Wildlife and Resources           Tennessee State court. He was ordered
                         Agency requested ECJTF’s assistance            to remove all tires and related debris from
                         after observing a group of dead wild and       the area, to the satisfaction of TVA, and
                         domestic animals in Warren County,             to pay court costs. As a result of the
                         Tennessee. Investigation found chicken         investigation, TVA avoided paying an
                         meat, laced with aldicarb, hanging on a        estimated $4,288 in labor and equipment
                         fence near the dead animals’ location.         that would have been required to clean
                         (Aldicarb is an extremely toxic and highly     the area.
                         regulated soil pesticide with limited legal
                         uses.)                                         Illegal Transport of Hazardous Material

                                                                        It was alleged that an environmental
                         Investigation revealed a nearby land-          services business (licensed hazardous
                         owner had engaged an individual to             waste transporter) made a practice of
                         eradicate coyotes on his property. That        mixing hazardous and nonhazardous
                         individual was found to have illegally laced   waste, then moving the mixture as
                         the chicken with aldicarb and pled guilty      nonhazardous waste to disposal facilities
                         to a violation of the Federal Insecticide,     in the Southeastern United States. (The
                         Fungicide, and Rodenticide Act.                RCRA states that blending hazardous
                                                                        and nonhazardous waste makes the
                         The individual was sentenced in federal
                                                                        entire mixture hazardous, and it must be
                         court to 300 hours’ community service
                                                                        transported and disposed of as such.)
                         and two years’ probation. Additionally,
                         he was ordered to pay a $2,000 fine.           Specifically, investigation revealed the
                                                                        company contracted to supply and
                                                                        dispose of carburetor cleaner. Although
                                                                        an appropriate EPA waste manifest was




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                           S P E C I A L        F E A T U R E S




required to pick up the waste, the             system failure could result in anything
company did not meet that requirement.         from small customer inconveniences to
Further, the company did not properly          electric power plant shutdowns affecting
dispose of or recycle the waste.               millions of customers.

The use of microtaggants by investiga-         TVA management recognized the
tors revealed the company mixed the            importance of being prepared for the Year
hazardous carburetor cleaner with              2000
nonhazardous paint waste, then dis-            rollover and,
posed of the resulting mixture as if it were   in 1996,
nonhazardous. Additionally, the                established
company’s president misled investigators       a Year 2000
by stating the material had been shipped       Project
to a reclamation site when it had not.         Office. The
                                               Project
The company and its president pled guilty      Office,
in United States District Court to two         through its
counts of violating the RCRA. The              Year 2000
                                                                                           TVA Year 2000 Project Team
company and its president are awaiting         program,
sentencing.                                    sought to ensure TVA would operate
                                               safely, avoid business disruption,
CONGRATULATIONS TO TVA FOR
Y2K SUCCESS                                    continue critical business processes,
                                               ensure accuracy of electronic information,
Congratulations are in order for the many
                                               and maintain business interfaces with
TVA employees involved in the efforts to
                                               customers and vendors. The program of
ensure a smooth transition into the 21st
                                               the Project Office eventually involved
century. TVA is the largest producer of
                                               employees from all TVA organizations,
public power in the country. Over seven
                                               TVA’s business partners (including 159
million people and businesses in seven
                                               distributors), and mission critical suppli-
states rely on TVA for their electric
                                               ers. Guidance and oversight of the
power—a critical component of the
                                               program were enhanced through an
region and country’s infrastructure.
                                               external assessment of TVA’s Year 2000
Therefore, it was no small task for this
                                               plans and multiple organizations,
$6 billion dollar government corporation
                                               including independent reviews by the
to get ready for the Year 2000 rollover. A
                                               OIG.




                                                      S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   8
S P E C I A L            F E A T U R E S




                                       We began our review of TVA’s Year 2000                  management, we reviewed other
                                       plans in 1997. At that time, we found                   significant items which were reported
                                       that TVA’s Year 2000 plans were well                    as open in July 1999.
                                       underway and meeting General Account-               ■   We reviewed the Year 2000 business
                                       ing Office’s guidelines. In 1998, TVA’s                 unit continuity and contingency plans
                                                                        Chief Informa-         for mission critical business unit risks.
                                                                        tion Officer,          This review ensured these plans
                                                                        with OIG               included a description of the re-
                                                                        assistance,            sources required, staff roles, proce-
                                                                        contracted with        dures, and a timetable for
                                                                        a third party to       implementation.
                                                                        assess TVA’s       ■   We reviewed TVA’s Year 2000
                                                                        Year 2000              business continuity plans to ensure
          OIG Year 2000 Auditing Team (from left to right)              program and            sufficient actions were taken to
 Dave Willis, Phyllis Palmer, Deborah Thornton, Greg Strach, John
Barrow, Linda Folks, Rick Taylor, Jill Matthews, Andy Pearson, Kristi
                             Underwood
                                                                        progress. We           coordinate those plans with the
                                                                        reviewed the           external parties identified as being
                                       third party’s report and developed an                   necessary for the plan’s
                                       audit plan to address areas of documen-                 implementation.
                                       tation and business continuity plans.               ■   We verified the Year 2000 readiness of
                                       Furthermore, our audit plan included                    information systems that provide
                                       follow-up on concerns that the feeder                   information to TVA’s financial reporting
                                       systems to TVA’s general ledger were not                system.
                                       Year 2000 compliant.
                                                                                           Throughout our audits, we worked
                                       The following are highlights of our                 closely with TVA management to facilitate
                                       Year 2000 work:                                     timely closure of all findings and recom-
                                                                                           mendations. This working relationship
                                       ■   TVA identified 20,000 mission critical          proved to be a key element of success for
                                           items that had to be addressed for              both the OIG and TVA. In the final
                                           Year 2000 compliance. We assessed               analysis, January 1, 2000, came and
                                           mission critical items reported as              went quietly.
                                           closed to ensure they were supported
                                           by appropriate closure documenta-
                                           tion. In addition, at the request of TVA




9      TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                  A U D I T S             ■




Audits are initiated from (1) the OIG       During this reporting period, TVA
annual workplan, (2) issues identified by   management successfully negotiated
the OIG subsequent to the annual            total savings of $5 million as a result of
workplan, (3) issues identified by          audits issued during this and previous
cooperative efforts with TVA manage-        reporting periods. TVA management is
ment, or (4) concerns raised by TVA         continuing negotiation of other contracts
management or others. During this           we audited during this reporting period.
reporting period, we issued 45 audit
                                            CONTRACT COMPLIANCE AUDITS
reports which identified over $950,000 in
questioned costs and more than              We completed 19 contract compliance
$5.2 million in funds which could be put    audits and questioned $912,000 in
to better use (see Appendix 1).             overbillings and excessive costs to TVA
                                            and identified opportunities for additional
Summary of                                  savings of at least $473,000. Our audit
Representative Audits                       findings included questioned costs
                                            related to:
Our audits included performance reviews
of TVA programs, processes, and             ■   Overhead and payroll tax rates applied
systems, as well as preaward and                to inappropriate labor rates.
postaward audits of TVA contractors.        ■   Overrecovery of payroll taxes, insur-
                                                ance, and fringe benefit costs.
RECOMMENDATIONS FOR
                                            ■   Unsupported labor costs.
POTENTIAL COST SAVINGS IN
CONTRACT NEGOTIATIONS                       ■   Overstated material costs.

We conducted six preaward audits to         Management generally agreed with our
assist TVA management in negotiation of     findings and has taken or plans to take
procurement actions. These audits           action to recover questioned costs where
identified opportunities for TVA manage-    appropriate.
ment to negotiate savings totaling about
$4.7 million. Our preaward findings         VISA PURCHASING CARD
                                            PROGRAM
included suggestions for adjusting
proposed markup rates for fringe benefits   TVA uses Visa purchasing cards for
and general and administrative costs to     small-dollar purchases, including
actual costs.                               supplies and materials. At the end of
                                            fiscal year 1998, TVA had over




                                                   S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   10
A U D I T S




                      1,340 cardholders with annual purchases      ■   TVA improved controls by improving
                      of about $29 million. We reviewed the            program automation and transferring
                      Visa purchasing card program to assess           to a preferred supplier program.
                      controls and compliance and found:           ■   Program controls were ineffective in
                                                                       several critical program areas, includ-
                      ■   Various program controls were
                                                                       ing monthly payments, program
                          effective, and some had been en-
                                                                       guidelines, record retention, disputed
                          hanced since our last purchasing card
                                                                       charges, and travel expenses for other
                          review.
                                                                       employees.
                      ■   Other program controls such as
                                                                   ■   About three-fourths of the card-
                          retaining records when cardholders
                                                                       holders did not comply with one or
                          transfer or terminate and ensuring
                                                                       more controls for verifying, approving,
                          cards are canceled when requested
                                                                       and documenting charges.
                          were less effective.
                      ■   Forty-nine percent of cardholders did    We recommended that TVA improve
                          not comply with one or more control      program controls, enhance process
                          tests related to monthly verification,   automation, and revise program guide-
                          approval, and documentation of           lines. TVA management agreed to initiate
                          charges.                                 additional control measures to address
                                                                   most of the recommendations and is
                      Accordingly, we recommended and TVA
                                                                   further considering some additional
                      agreed to (1) further improve program
                                                                   controls.
                      controls and (2) reemphasize program
                      requirements for documentation and           GOVERNMENT PERFORMANCE AND
                      review to improve cardholder compliance.     RESULTS ACT OF 1993

                                                                   TVA developed 24 performance indica-
                      VISA GOLD CARD PROGRAM
                                                                   tors as part of the annual performance
                      TVA uses Visa Gold cards for executive       plan submitted to Congress in response
                      travel, hospitality, and incidental ex-      to the Government Performance and
                      penses. At the end of fiscal year 1998,      Results Act of 1993 (GPRA). During this
                      TVA had over 320 cardholders, spending       semiannual reporting period, we com-
                      about $3 million annually, primarily for     pleted three audits pertaining to GPRA
                      lodging and meals. We assessed               performance indicators.
                      program controls and compliance and
                      found:




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                       AUDITS




The three indicators audited were:             tion to (1) conduct environmental
(1) Shipper Savings Performance (SSP),         management system audits and
(2) Bond Rating (BR), and (3) Total Debt       (2) follow up on corrective actions and
Outstanding (TDO). The objective of each       assess corresponding closure decisions.
audit was to determine if the (1) informa-
tion systems that provide source data for      TVA management generally agreed with

the indicator are reasonably accurate and      our findings and said the environmental

reliable and (2) indicator is reported         audit process would be reviewed prior to

correctly. We found the information used       any final decisions being made.

to support the BR and TDO indicators
                                               COMBUSTION TURBINE
was accurate and reliable, and the             INCREMENTAL COST
indicators were reported correctly. In         CALCULATIONS IMPROVED
addition, we found TVA did not maintain
                                               TVA utilizes Combustion Turbines (CT)
sufficient documentation to verify the SSP.
                                               to generate electricity during peak
TVA management has agreed to develop
                                               periods of demand. CT are TVA’s
the necessary policies and procedures to
                                               highest cost source of generation. In
ensure sufficient documentation will be
                                               order to make the correct dispatching
maintained in the future for the SSP
                                               decisions of whether to generate
indicator.
                                               electricity using CT versus purchasing
                                               electricity from other utilities, Transmis-
EFFECTIVENESS OF TVA’S
ENVIRONMENTAL AUDITS PROGRAM                   sion Power Supply (TPS) personnel
                                               compare the CT incremental production
At the end of 1994, TVA implemented a
                                               cost to the market price of purchasing
new process-based environmental
                                               electricity.
compliance auditing system. We reviewed
the effectiveness of the program for fiscal
                                               As part of our annual audit plan, we
year 1998, including the scope of activities
                                               reviewed the CT incremental costs to
covered by the program.
                                               determine if the costs are a fair represen-
                                               tation of CT incremental costs and can
In summary, we found TVA’s efforts
                                               be relied upon by TPS personnel to
related to regulatory compliance auditing
                                               make dispatching decisions.
and contractor risk assessments were
effective. We also found TVA could
                                               We found that TVA had understated the
improve the auditing process by authoriz-
                                               cycle cost component of the CT
ing the environmental auditing organiza-
                                               incremental cost by less than




                                                     S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   12
AUDITS




                      four percent. This understatement was      tions issued by the Occupational Safety
                      not significant to affect dispatch deci-   and Health Administration (OSHA) as
                      sions.                                     required by Executive Order. We
                                                                 conducted a review of one aspect of the
                      TVA management agreed that improve-        safety program—the handling of material
                      ments were needed to the calculation       safety data sheets (MSDS). MSDS
                      due to more frequent use of the CT units   contains critical information regarding the
                      and availability of after market parts.    handling of chemicals in the event of an
                      Management has taken appropriate           accident. Specifically, we reviewed the
                      actions to improve estimates of the CT     internal controls associated with MSDSs
                      incremental costs.                         to ensure TVA (1) maintains and updates
                                                                 MSDSs and (2) allows employee access
                      OIG REVIEWS TVA’S SAFETY
                      PROGRAM RELATED TO THE                     to MSDSs, as required by OSHA regula-
                      MANAGEMENT OF MATERIAL                     tions. We found the internal controls
                      SAFETY DATA SHEETS                         were not functioning properly in the areas
                      TVA has established a safety program       of written hazard communication
                      designed to help the agency conduct all    programs and MSDS accessibility.
                      of its programs and operations in a        Management has agreed to take correc-
                      manner which protects the safety and       tive action.
                      health of its employees. TVA’s safety
                      program must meet applicable regula-




13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                  I N V E S T I G A T I O N S                               ■




During the last six months, we substanti-         documentation to substantiate the
ated allegations in 29 of the 111 investi-        property tax claim. The remaining 38
gations we closed—over 26 percent.                counts of the indictment charged the
Our investigations resulted in over               former contractor with making false
$4.7 million in savings and recoveries, six       claims for per diem submitted on
subjects indicted, and nine convicted. In         monthly travel vouchers for TLE.
addition to investigations discussed              According to the indictment, the
previously in the special feature, other          individual fraudulently acquired over
representative investigations are high-           $38,000 in TLE.
lighted below.                                ■   As a result of our investigations, three
                                                  former contractor employees at Watts
Summary of                                        Bar Nuclear Plant (WBN) entered into
Representative                                    agreements with the DOJ to settle all
Investigations                                    civil and administrative claims against
                                                  them, as described below.
FALSE CLAIMS—TEMPORARY
                                                  — Investigation revealed a former
LIVING EXPENSES (TLE)
                                                     contractor employee falsified TLE
We continued our efforts to reduce TVA
                                                     certifications by stating he was
contract costs by identifying fraudulent
                                                     entitled to TLE because he
and ineligible TLE paid to TVA contractor
                                                     maintained a permanent home in
employees. During this reporting period,
                                                     Mississippi while stationed at
our TLE investigations led to recoveries of
                                                     WBN. Our investigation found the
$130,743. Highlights of these investiga-
                                                     Mississippi structure was actually a
tions follow.
                                                     fishing cabin which had never been
                                                     used as a permanent residence by
■   A federal grand jury indicted a former
                                                     anyone. We found the individual
    contractor employee on 40 counts
                                                     altered a lease agreement and
    related to submitting false claims to
                                                     rental receipts to support his claim.
    receive TLE. The first count of the
                                                     The former contractor employee
    indictment charged the individual
                                                     agreed to pay the government
    falsely asserted he incurred property
                                                     $54,000 in restitution and
    tax expenses on an Ohio home which,
                                                     penalties.
    in fact, he neither owned nor paid
                                                  — Another individual claimed he
    taxes on. The second count charged
                                                     supported a permanent South
    him with producing fraudulent
                                                     Carolina residence maintained by



                                                     S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   14
I N V E S T I G A T I O N S




                                his adult daughter while he worked      FALSE CLAIMS—OFFICE OF
                                                                        WORKERS’ COMPENSATION
                                at WBN. Investigation revealed,
                                                                        PROGRAMS (OWCP)
                                however, the contractor employee
                                did not pay rent, utilities, or any     To receive benefits through the Federal
                                expenses for the South Carolina         Employees’ Compensation Act (FECA),
                                home. The individual agreed to pay      recipients must periodically submit forms
                                a $5,000 penalty.                       to OWCP that require the recipient to
                              — A third subject claimed he main-        report all employment activities (including
                                tained a permanent Missouri             self-employment). OWCP uses the forms
                                residence while stationed at WBN.       to determine a recipient’s continuing
                                Investigation revealed the individual   eligibility for FECA benefits. Failure to
                                had owned the residence but had         disclose employment information to
                                used a real estate management           OWCP violates state and federal laws.
                                firm to rent it to others since 1989.   During this reporting period, our FECA
                                Additionally, the former contractor     fraud investigations led to recoveries and
                                employee (1) sold the residence in      long-term savings of $915,000. High-
                                May 1995 but continued to receive       lights of investigative results follow.
                                TLE based on his purported
                                                                        ■   A federal judge sentenced a former
                                expenses in maintaining that home
                                                                            TVA laborer to four months’ home
                                and (2) purchased a residence in
                                                                            detention and three years’ probation
                                the WBN area during 1993, before
                                                                            during this reporting period. (The
                                executing his first WBN certification
                                                                            individual pled guilty to one count of
                                for TLE reimbursement. The
                                                                            mail fraud and one count of making
                                individual agreed to pay TVA
                                                                            false statements to receive FECA
                                $26,767.50—the amount of TLE
                                                                            benefits during an earlier period.) The
                                he received during his TVA
                                                                            former TVA laborer also was ordered
                                employment.
                                                                            to make immediate restitution to TVA
                                                                            of $16,000. (Our investigation found
                                                                            the laborer did not report harvesting
                                                                            and selling mussels while receiving
                                                                            permanent total disability benefits.)
                                                                        ■   A former TVA pipefitter pled guilty to
                                                                            four counts related to making false
                                                                            statements to receive OWCP benefits.




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                I N V E S T I G A T I O N S




    Although the individual disclosed no       BACKGROUND INVESTIGATIONS
    employment activities to OWCP as           At the request of TVA management, we
    required, our investigation revealed he    continued to perform background
    was employed by three different            investigations for sensitive positions and
    businesses performing welding,             for national security clearances. These
    fabricating, mechanic work, and            investigations ensure individuals being
    general labor—including operating          hired for sensitive positions meet
    mowers and tractors—while he was           applicable requirements. By using the
    receiving total temporary disability       OIG to perform these inquiries, rather
    benefits. OWCP has terminated his          than the United States Office of Person-
    benefits, creating a long-term savings     nel Management, TVA saved over
    to TVA exceeding $800,000. The             $29,000 on 13 investigations during this
    former pipefitter is awaiting              reporting period.
    sentencing.
■   A former TVA cement mason pled
    guilty to one count of making false
    statements to obtain FECA benefits.
    His plea remains pending a
    magistrate’s approval. At the hearing
    wherein he pled guilty, he presented a
    cashier’s check to TVA for full restitu-
    tion ($13,671.42). The former
    employee is awaiting sentencing. (We
    reported the indictment of this
    individual during a previous period.
    Our investigation found he did not
    report his ownership and active
    participation in a vinyl siding business
    while receiving partial disability
    benefits.)




                                                     S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   16
I N V E S T I G A T I O N S




                                              Administrative and Disciplinary Actions Since
                                                              April 1, 1995*
                                                               Total = 269

                                                                 Resignations/
                                                                 Terminations
                                                                                                   Suspensions/
                                          Oral/Written                  16.5%                       Demotions/
                                           Warnings                                      11.5%       Transfers
                                                         15.5%


                                                           25.5%                         31%


                                     Reemployment                                              Counseling/
                                        Flagged                                           Management Techniques



                                                *Prosecutive referrals are shown at Appendix 3.




                                      The breakdown of the 111 closed investigations involving
                                                    TVA organizations are shown below.




                                                                        Transmission &
                                                                        Power Supply
                                                TVA Nuclear                 3.5%
                                                         23.5%
                       River System
                       Operations &                                               21.5%          Fossil Power
                       Environment 4.5%

                                                         32.5%                   14.5%



                                               CAO/                                            Other
                                          Business Services




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                          I N V E S T I G A T I O N S




                   All Hotline Calls During This Reporting Period
                                     Total = 2,307

Nature of Calls                          OIG Business
                                             Calls

                                               76%




                                                     21.5%

                           2.5%
       Calls Raising Concerns of
        Misconduct, Improper                               Information
           Management, or                                   Requests
        Personnel Procedures




                   Referrals for OIG Investigations or Audit Action
                                       Total = 56


                                                           Former TVA/Contractor
Sources of Calls                   General                      Employees
Raising Concerns                    Public
                                             19.5%         12.5%




                                                     68%




                                                 TVA/Contractor
                                                  Employees &
                                              Contractor Companies




                                                               S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   18
■    S P E C I A L         P R O J E C T S




                      In addition to conducting audits and         CONTRACTOR’S PROPOSED FEE
                                                                   FOR MEDICAL BENEFITS
                      investigations, our office continues to
                                                                   ADMINISTRATIVE SERVICES
                      perform special projects upon request by
                      our customers, primarily the Board of        TVA self-insures its employee medical
                      Directors, TVA management, and               benefits plan but contracts out plan
                      Congress. During this reporting period,      administration to obtain network benefits
                      we conducted 12 special projects. The        and claims processing services. At the
                      most significant projects are summarized     request of TVA Procurement and
                      below.                                       Compensation and Benefits, we per-
                                                                   formed a limited review of a contractor’s
                      REVIEW OF TVA’S COMPLIANCE                   proposed administrative services fee. We
                      STRATEGY FOR PHASE II EMISSIONS
                                                                   assessed the contractor’s pricing
                      REDUCTIONS
                                                                   methodology, fee cost components, and
                      The Clean Air Act Amendments of 1990         cost allocations to the TVA account.
                      established a two-phase Acid Rain
                      Program to reduce sulfur dioxide and         In summary, we found some charges had
                      nitrogen oxide emissions from fossil-        been inappropriately allocated to TVA,
                      fueled power plants. In response, TVA        thereby inflating the contractor’s pro-
                      developed a least-cost compliance            posed fee by about $345,000 over a
                      strategy.                                    three-year period.

                      At the request of TVA’s Board of Direc-      The contractor subsequently agreed to
                      tors, we reviewed TVA’s Phase II strategy    reduce the proposed fee by the amount
                      as of July 31, 1998, with assistance from    questioned.
                      a consultant that specialized in the coal,
                      power, and transportation industries.
                      Basically, the consultant concluded
                      TVA’s compliance strategy was reason-
                      able. The consultant also provided TVA
                      with other alternative strategies for
                      consideration.




19   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                         S P E C I A L       P R O J E C T S




IMPLEMENTATION OF TVA’S NEW                   During this reporting period, the OIG
SUPPLY CHAIN SYSTEM
                                              participated on the business process
In the summer of 1999, TVA began a            review teams to provide input on the
major project to replace its legacy supply    internal controls of the redesigned
chain systems with a new integrated           business processes and to acquire
system. In the first phase of this project,   knowledge of the new software for future
a cross-functional team was established       pre-implementation reviews. The
with representatives from TVA’s Procure-      outcome from the business process
ment, Information Services, Operating,        review teams has become the foundation
and Financial organizations; the software     for implementation of the software and
vendor; and the OIG to conduct in-depth       the streamlined business processes.
reviews of the supply chain business          During the next two reporting periods,
processes. Through these reviews, the         the OIG will conduct a series of pre-
team redesigned the supply chain              implementation reviews of the new
business processes to take full advan-        system in areas such as internal controls,
tage of the software’s functionality, thus    security, testing, and conversion.
maximizing cost savings and minimizing
the need for customization of the
software.




                                                    S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000   20
■    L E G I S L A T I O N                A N D           R E G U L A T I O N S




                      During this reporting period, we submit-
                      ted comments to the Department of
                      Health and Human Services on the
                      proposed rule, “Standards for Privacy of
                      Individually Identifiable Health Informa-
                      tion.” We also reviewed several bills
                      relevant to the OIG community, including
                      the Government Information Security Act
                      and a bill to make the TVA Inspector
                      General presidentially appointed.




21   TVA/OFFICE OF THE INSPECTOR GENERAL
■   A P P E N DI C E S




           S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
Appendix 1
Page 1 of 3

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING MARCH 31, 2000

              The following table summarizes final audit reports issued by the OIG from October 1, 1999 through March 31, 2000.

                                                                                                                 FUNDS
              DATE        REPORT                                            QUESTIONED      UNSUPPORTED       TO BE PUT TO
              ISSUED      NUMBER            REPORT TITLE                       COSTS          COSTS            BETTER USE

              10/7/1999    1999-065C       Stone & Webster Construction
                                           - Request for Rate Increase -
                                           P-96N5B-161365                                                       $4,444,200

              10/8/1999    1999-058F       Review of Coordination of
                                           TVA’s Year 2000 Business
                                           Continuity Plan With External
                                           Parties

              10/8/1999    1999-069C       Sigmon Coal Company -
                                           Contract 91P07-115634

              10/12/1999 1999-077F         Windows NT Server Security
                                           Follow-Up

              10/15/1999 1999-031P         Review of TVA’s Preferred
                                           Hotel and Conferencing Program       $16,423          $3,823

              10/18/1999 1999-001C-01 Visa Purchasing Card Program               11,000

              10/18/1999 1999-057C-01 LBL Concessionaires -
                                      J Bar J Riding Stables

              10/18/1999 1999-057C-02 LBL Concessionaires -
                                      Hudson’s Western Store

              10/18/1999 1999-057C-03 LBL Concessionaires -
                                      Cheryl’s Food Service

              10/18/1999 1999-057C-04 LBL Concessionaires -
                                      Report to TVA Management

              10/22/1999 1999-029C         Vallen Safety Supply Company -
                                           Contract Number
                                           97X5B-202893-003                      84,925                             41,800

              10/22/1999 1999-075C         GTS Duratek Bear Creek

              10/27/1999 1999-076C         American Aquatics, Inc. -
                                           Contract 97RKW-192521

              10/29/1999 1999-079C         Bechtel Power Corporation

              11/1/1999    1999-019C       Borg-Warner                          584,035         576,585            432,000

              11/1/1999    1999-082C       Scientific Ecology Group

              11/2/1999    1999-053C       G-UB-MK Cost Review




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                           Appendix 1
                                                                                                                            Page 2 of 3

                                                                                                         FUNDS
DATE        REPORT                                           QUESTIONED         UNSUPPORTED           TO BE PUT TO
ISSUED      NUMBER         REPORT TITLE                         COSTS             COSTS                BETTER USE

11/16/1999 2000-001F      Review of Year 2000 Business
                          Unit Continuity and Contingency
                          Plans for Mission Critical
                          Business Unit Risks

11/22/1999 1999-071C      Review of L. E. Myers Overhead
                          Billing Rate Adjustments              $116,163            $116,163

11/24/1999 2000-011C      Numanco LLC - Review of
                          Labor Multiplier

11/30/1999 1999-018C      Review of NPS Contract for
                          Maintenance and Modification
                          Work on Contract 95P6G-133445

12/8/1999   2000-003F     Review TVA’s Method for
                          Calculating Combustion Turbine
                          Incremental Production Cost                                                     $151,000

12/9/1999   1999-001C-02 Visa Gold Card Program                    13,100

12/10/1999 1999-061F      Year 2000 Readiness of IBS
                          Feeder Systems

12/13/1999 2000-010C      Numanco LLC -
                          Contract TV-92047V                       55,698

12/14/1999 1999-063C      Sverdrup Civil, Inc.

12/16/1999 2000-005F      Review of Controls for TVA’s Visa
                          Purchasing Card Pilot Program
                          for Contract Managers/Agents

12/20/1999 2000-023F      Review of Actions Taken By
                          TVA to Address Its 37
                          Enterprise-Wide Risks

1/5/2000    1999-055F     Review of TVA’s Annual
                          Financial Statement Audit -
                          FY 1999

1/18/2000   2000-022C     ABB Power T&D Co., Inc. -
                          Contract 97X1E-197652

1/21/2000   2000-019C     Pre-Award Audit - Canus
                          Proposal - RFP - 256539

1/28/2000   1999-028P     Review of Environmental
                          Management System Auditing
                          Process

2/3/2000    1998-069C     Hartford Steam Boiler Inspection
                          and Insurance Company
                          Contract TV-90562V                       29,370               4,460




                                                             S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
Appendix 1
Page 3 of 3

                                                                                                          FUNDS
              DATE        REPORT                                            QUESTIONED   UNSUPPORTED   TO BE PUT TO
              ISSUED      NUMBER          REPORT TITLE                         COSTS       COSTS        BETTER US

              2/3/2000    2000-002C      Co-Development International
                                         and Delloitte & Touche
                                         Consulting Group, LLC                 $41,755      $41,755

              2/18/2000   2000-032F      Review of TVA’s Accounts
                                         Receivable Write-off Policy

              3/3/2000    2000-028C      CC Metals & Alloys, Inc.

              3/7/2000    2000-038F      Bond Rating Indicator

              3/10/2000   1999-081F      Review of Updated Internal
                                         Controls Associated With
                                         J-Type Contracts

              3/12/2000   2000-029C-02 Terra Industrial Services

              3/17/2000   2000-021F      Review of Material Safety
                                         Data Sheets

              3/21/2000   2000-037F      Shipper Savings Indicator

              3/22/2000   2000-045F      Verification of Summarized
                                         Federal Agencies’ Centralized
                                         Trial-Balance System (Facts)
                                         Data - FY 1999

              3/24/2000   2000-034C      Environmental Systems
                                         Research Institute, Inc.                                        $205,000

              3/27/2000   2000-035C      Geonex Corporation                                                22,000

              3/27/2000   2000-043F      Total Debt Outstanding Indicator


              TOTAL       45                                                 $952,469      $742,786     $5,296,000




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                             Appendix 2
                                                                                                                               Page 1 of 2

OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
SIX-MONTH PERIOD ENDING MARCH 31, 2000

The following Tables I and II summarize management decisions made by TVA management on OIG
recommendations contained in final audit reports. The tables reflect amounts which were questioned and
recommended to be put to better use and track the disposition of these amounts through management decision.

                                              TABLE I
                             TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                     NUMBER                QUESTIONED           UNSUPPORTED
     AUDIT REPORTS                                  OF REPORTS               C OSTS                C OSTS


A.   For which no management
     decision has been made by
     the commencement of the period                        2                 $1,134,902                 $96,372

B.   Which were issued during
     the reporting period                                  9                    952,469                 742,786

     Subtotal (A + B)                                    11                 $2,087,371                $839,158

C.   For which a management
     decision was made during
     the reporting period                                10*                  2,074,271                 839,158

     1.   Dollar value of
          disallowed costs                               10                      819,772                742,786

     2.   Dollar value of
          costs not disallowed                             4                  1,254,499                  96,372

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                                1                      13,100                        0

E.   For which no management
     decision was made within
     six months of issuance                                0                             0                      0

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
  disallowed and not disallowed by management.




                                                               S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
Appendix 2
Page 2 of 2

                                                          TABLE II
                                               FUNDS TO BE PUT TO BETTER USE

                                                                   NUMBER                             FUNDS TO BE PUT
                   AUDIT REPORTS                                  OF REPORTS                           TO BETTER USE


              A.   For which no management
                   decision has been made by
                   the commencement of the period                        3                                  $789,010

              B.   Which were issued during
                   the reporting period                                  6                                  5,296,000

                   Subtotal (A + B)                                      9                                $6,085,010

              C.   For which a management
                   decision was made during
                   the reporting period                                  7*                                 5,858,010

                   1.   Dollar value of
                        disallowed costs                                 7                                  5,509,103

                   2.   Dollar value of
                        costs not disallowed                             2                                    348,907

              D.   For which no management
                   decision has been made by
                   the end of the reporting
                   period                                                2                                    227,000

              E.   For which no management
                   decision was made within
                   six months of issuance                                0                                           0

              * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
                disallowed and not disallowed by management.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                      Appendix 3
                                                                                                                        Page 1 of 1

INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



INVESTIGATIVE REFERRALS                      SUBJECTS            RESULTS THIS PERIOD


Subjects referred to U.S. Attorneys             7                       6   Indicted
                                                                        9   Convicted
                                                                       11   Referrals Declined

Subjects referred to other agencies             2                 OWCP terminated benefits of a
for investigative or administrative action                        former employee, creating a
                                                                  long-term savings to TVA of
                 TOTAL                          9                 $885,328.




                                                        S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
Appendix 4
Page 1 of 1

              AUDIT REPORTS WITH CORRECTIVE ACTIONS PENDING

              Final corrective actions of recommendations in two contract compliance reports, one operational audit,
              one preaward audit, and three information systems audits have not yet been fully implemented;
              however, all are being implemented in accordance with currently established milestones.

              Report 1996-037C-01 issued August 11, 1998
              The report contained one recommendation regarding the contractor’s ability to produce adequate
              documentation for billed costs. TVA is assessing what action is needed.

              Report 1996-037C-02 issued September 3, 1998
              The report contained two recommendations—one regarding overpayments and one regarding the
              contractor providing supporting documentation for billed costs. TVA is pursuing recovery of
              overpayments and resolution of unsupported costs.

              Report 1998-033P issued July 21, 1999
              The report contained one recommendation regarding incorrect year-end actuarial calculations and
              incorrect reporting of projected benefits. TVA is planning to record executive pension expense in
              accordance with Statement of Financial Accounting Standard No. 87 and make plan participants more
              aware of the potential effect of offsets on benefits.

              Report 1998-074C issued April 28, 1999
              The report contained four recommendations regarding negotiation of cost reimbursable payment
              terms. TVA has resolved two of the recommendations and is assessing what action is needed to
              resolve the other recommendations.

              Report 1999-014F issued May 26, 1999
              The report contained 11 recommendations regarding increased security of TVA’s Windows NT servers
              by updating security policies and procedures. TVA has resolved two of the recommendations and has
              assembled a team which is currently reviewing and updating TVA’s security policies and procedures.

              Report 1999-024F issued May 25, 1999
              The report contained eight recommendations regarding increased access controls over non-TVA
              personnel and organizations in TVA’s electronic mail system. TVA is currently implementing their
              planned actions.

              Report 1999-048F issued July 14, 1999
              The report contained five recommendations regarding security of sensitive information on TVA’s
              internet and intranet sites. TVA is currently implementing their planned actions.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                                Appendix 5
                                                                                                                                  Page 1 of 1

OIG REPORTING REQUIREMENTS

Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
indicated below.

Section 4(a)(2)     Review of Legislation and Regulations                 Page 21

Section 5(a)(1)     Significant Problems, Abuses, and                     Pages 5-20
                    Deficiencies

Section 5(a)(2)     Recommendations With Respect to                       Pages 5-20
                    Significant Problems, Abuses, and
                    Deficiencies

Section 5(a)(3)     Recommendations Described in Previous                 Appendix 4
                    Semiannual Reports on Which Corrective
                    Action Has Not Been Completed

Section 5(a)(4)     Matters Referred to Prosecutive                       Appendix 3
                    Authorities and the Prosecutions
                    and Convictions That Have Resulted

Sections 5(a)(5)    Summary of Instances Where Information                None
and 6(b)(2)         Was Refused

Section 5(a)(6)     Listing of Audit Reports                              Appendix 1

Section 5(a)(7)     Summary of Particularly Significant Reports           Pages 10-20

Section 5(a)(8)     Status of Management Decisions for                    Appendix 2
                    Audit Reports Containing Questioned Costs

Section 5(a)(9)     Status of Management Decisions for                    Appendix 2
                    Audit Reports Containing Recommendations
                    That Funds Be Put to Better Use

Section 5(a)(10)    Summary of Unresolved Audit Reports                   None
                    Issued Prior to the Beginning of the
                    Reporting Period

Section 5(a)(11)    Significant Revised Management Decisions              None

Section 5(a)(12)    Significant Management Decisions With                 None
                    Which the Inspector General Disagreed




                                                                  S E M I A N N U A L R E P O R T / OCTOBER 1 , 1999 ~ MARCH 3 1, 2000
                                                  HIGHLIGHTS

                                                                 FOR SEMIANNUAL REPORTING PERIODS
                                                       MAR 31,        SEPT 30,     MAR 31,     SEPT 30,    MAR 31,
                                                        2000           1999         1999         1998       1998

        ANNUAL BUDGET (In Millions of Dollars)             7.2               7.3      7.3          7.3        7.3
        CURRENT STAFFING                                    79                78       81           83         81

        AUDITS & SPECIAL PROJECTS
        AUDITS IN PROGRESS
        Carried Forward                                     36            34*           40         46         40
        Started                                             59            41            42         34         50
        Canceled                                             2            (3)         (11)        (13)       (14)
        Completed                                           45           (36)         (38)        (27)       (30)
        In Progress at End of Reporting Period              48            36            33          40         46

        AUDIT RESULTS (Thousands)
        Questioned Costs                                $952          $1,678       $1,137       $1,769     $1,191
        Disallowed by TVA                                 820            673          946        1,656        636
        Recovered by TVA                                1,333            580          607          110      2,029

        Funds to Be Put to Better Use                  $5,296         $9,861       $1,402        $220      $2,359
        Agreed to by TVA                                5,509          7,612          980        5,169        696
        Realized by TVA                                 5,775          1,834          389          136        696

        SPECIAL PROJECT RESULTS (Thousands)
        Completed                                           12               11        18           11        13
        Cost Savings Identified/
          Realized                                       $345                 0         0      $14,704      $843

        INVESTIGATIONS
        INVESTIGATION CASELOAD
        Opened                                            107             88           59          78         78
        Closed                                            111             81           66          81         74
        In Progress at End of Reporting Period            137            140          133         140        144

        INVESTIGATIVE RESULTS (Thousands)
        Recoveries                                     $3,758         $1,772       $1,145        $284       $946
        Savings                                           988          1,422        1,912        3,388       645
        Fines/Penalties                                    25              5           27 **

        ADMINISTRATIVE AND
        DISCIPLINARY ACTIONS
        Recommended (# of Cases)                            21               21        19           20        24
        Actions Taken (# of Subjects)                       13               17        11           22        12
        Counseling/Management
          Techniques (# of Cases)                            5                3         4           8 **

        PROSECUTIVE ACTIVITIES (# of Subjects)
        Referred                                             7                8         4           12        11
        Indicted                                             6                7         6            5         2
        Convicted                                            9                5         9            9         6

        * Adjusted from previous semiannual reports.
        ** Category added to Highlights during reporting period indicated.




TVA/OFFICE OF THE INSPECTOR GENERAL
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY

                    400 WEST SUMMIT HILL DRIVE

                 KNOXVILLE, TENNESSEE 37902-1401
